No. 19-247
IN THE

$,Upreme QCourt of tbe rnntteb $)tares
CITY OF BOISE,

Petitioner,

V.

ROBERT MARTIN; L AWREN CE LEE SMITH; ROBERT
ANDERSON; JANET F. BELL; PAMELA 8. HAWKES ; AND
BASILE. HUMPHREY,

Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of November, 2019, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Michael E. Bern
LATHAM & WATKINS LLP
555 Eleventh Street, NW

Suite 1000

Washington, DC 20004
(202) 637-1021
mi chael. bern@lw.com

Counsel for Respondents

a__~ C?'
AndrJ.Wilhelm

